Audit of Medicaid Payments for Oxygen Related Durable Medical Equipment and Supplies - Minnesota Department of Human Services, St. Paul, Minnesota; (A-05-01-00039)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid Payments for Oxygen Related Durable Medical Equipment
and Supplies, Minnesota Department of Human Services, St. Paul, Minnesota," (A-05-01-00039)
February 15, 2002
Complete
Text of Report is available in PDF format (107 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Recent changes in the Medicare fee schedules, under the Balanced Budget Act
of 1997, substantially reduced the payment levels for numerous Medicare items.  Minnesotas
Medicaid State Plan generally provided that medical supplies and equipment
should be paid at the Medicare fee schedule amount. We reviewed 125,021 paid
claims (totaling $3,100,615) for oxygen related DME and supplies provided to
Medicaid recipients during our audit period.  We determined that Medicaid
reimbursements for several oxygen related items exceeded the associated amounts
allowable under the Medicare payment limits but amounted to only about $2,200
in Medicaid overpayments.  To the States credit, these minor overpayments
were offset by substantial savings attained by using competitive bidding for
oxygen related DME equipment and supplies.  The State has achieved significant
savings (millions of dollars) by obtaining competitive bids and setting the
Medicaid allowable rates for oxygen related DME at amounts much less than the
Medicare allowable rates.